U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 16, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Shameke Walker v. United States of America
S.Ct. No. 20-7183

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 15,
2021, and placed on the docket on February 19, 2021. The government’s response is due on
March 22, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including April 21, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7183
WALKER, SHAMEKE
USA

MICHAEL O. HUESTON
16 COURT STREET
SUITE 1800
BROOKLYN, NY 11241
718-246-2900
MHUESTON@NYC.RR.COM

